PROOF OF SERVICE
I, Barrington Boyd , do swear or declare that on this date,
August 27, 2020. as required by Supreme Court Rule 29 I have
served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Katten Muchin Roseman LLP
550 S Tryon Street, Ste 2900
Charlotte, NC 28202
Email michaela.holcombe@kattenlaw.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 27

-2029—

(Signature)

